No. 19-1189

IN THE
Supreme Court of the United States
BP P.L.C., ET AL., Petitioners,
v.

MAYOR AND CITY COUNCIL OF BALTIMORE, Respondent.

CERTIFICATE OF COMPLIANCE
I, Victor M. Sher, a member of the Bar of this Court, as required by Supreme
Court Rule 33.1(h), do hereby certify this 16t day of December, 2020, that the Brief
of Respondent Mayor and City Council of Baltimore in Opposition contains 12,932

words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d).

      

Victor M. Sher — Counsel of Record
SHER EDLING LLP

100 Montgomery St., Ste. 1410
San Francisco, CA 94104

vic@sheredling.com
December 16, 2020
